Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Office of Juvenile Justice and Delinquency Prevention Spokane Safe Start Grant Awarded to Washington State UniversityGrant Number 2000-JW-VX-K009Pullman, Washington

Report No. GR-90-04-006


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Spokane Safe Start Project Cooperative Agreement, including supplements, awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention (OJJDP) to Washington State University (WSU) in Pullman, Washington.  The purpose of this agreement is to prevent and reduce the impact of family and community violence on young children, primarily from birth to six years of age.  Safe Start seeks to create a comprehensive service delivery system by helping communities to expand existing partnerships among service providers in the fields of early childhood education/development, health, mental health, family support and strengthening, domestic violence, substance abuse prevention and treatment, crisis intervention, child welfare, law enforcement, courts, and legal services.  As of September 10, 2003, WSU was awarded a total of $2,680,000 to undertake the "Safe Start Demonstration Project," which included direct program implementation responsibility for information management, resource development, professional development, and education activities.  We tested WSU's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed that controls over the accounting process and records related to the grant were adequate.  We found WSU to be in compliance with OJP's grant requirements.  We reviewed WSU's compliance with essential grant conditions and found no weaknesses in WSU's accounting records.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.